CREATING
LAW
ENFORCEMENT
ACCOUNTABILITY &
RESPONSIBILITY

Main Street Legal Services, Inc.
CUNY School of Law
2 Court Square
Long Island City, NY 11101-4356
www.cunyclear.org

July 29, 2019
VIA CERTIFIED MAIL
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

No. 19-71, FNU Tanzin, et al. v. Muhammad Tanvir, et al.

Dear Mr. Harris:
After receiving two extensions of time totaling sixty (60) days, Petitioners filed a Petition
for a Writ of Certiorari in the above-cited action on July 12, 2019 and it was docketed on the
same day. Absent an extension, the brief in opposition is due on August 12, 2019. Pursuant to
Rule 30.4 of the Rules of the Supreme Court of the United States, Respondents Muhammad
Tanvir, Jameel Algibhah, and Naveed Shinwari respectfully request an extension of sixty (60)
days to and including October 11, 2019 to file a brief in opposition to the Petition for a Writ of
Certiorari.
Respondents are represented by three co-counsel, working pro bono on this matter, who
seek the extension in light of pre-existing professional and personal commitments.
In the next month, counsel for the Respondents have upcoming filing deadlines in four
matters pending in four separate courts as well as a trial in one of these matters. In addition,
longstanding international travel plans to meet family obligations along with other personal
commitments further compound the difficulty of coordinating and completing the brief in
opposition by the current deadline.
This is the first extension that Respondents have sought. Petitioners do not oppose this
request.
Respectfully submitted,
______/s/Ramzi Kassem__________
Ramzi Kassem
CLEAR Project
Main Street Legal Services, Inc.
City University of New York
(t) 718.340.4558
(f) 718.340.4533
(e) cunyclear@law.cuny.edu

Page 2 of 2

School of Law
2 Court Square
Long Island City, New York 11101
(718) 340-4558
ramzi.kassem@law.cuny.edu
Counsel for Respondents
cc:

Noel J. Francisco
Counsel of Record
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
(202) 514-2217

